Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    VULNERABILITIES IN THE
     HHS SMALL BUSINESS
    INNOVATION RESEARCH
         PROGRAM




                    Daniel R. Levinson
                     Inspector General

                       April 2014
                     OEI-04-11-00530
EXECUTIVE SUMMARY: VULNERABILITIES IN THE HHS SMALL BUSINESS
INNOVATION RESEARCH PROGRAM, OEI-04-11-00530

WHY WE DID THIS STUDY

The Small Business Innovation Research (SBIR) program awards funds to small businesses to
pursue innovative research and development ideas that have potential for commercial and that meet
research and development needs of the Federal Government. Since the implementation of the SBIR
program in 1982, the Department of Health and Human Services (HHS) has funded more than $8
billion in awards to small businesses that self-certify that they meet program requirements. However,
unlike most other SBIR awarding agencies, HHS does not have a single office responsible for
overseeing its SBIR program. In 1999, the Office of Inspector General reported that HHS had not
evaluated the success of the program. Further, other Federal agencies have identified fraud in their
respective SBIR programs, including awardees that falsely certify eligibility and receive duplicative
funding from multiple agencies.

HOW WE DID THIS STUDY

We reviewed fiscal year 2011 data from the four HHS Operating Divisions (OpDivs) that participate
in the SBIR program to determine the extent to which they ensured that awardees were eligible and
that awards were meeting program guidelines and goals. We also verified awardees’ eligibility using
data sources commonly used by other Federal agencies to identify potentially ineligible awardees.

WHAT WE FOUND

HHS awarded $360 million in SBIR funds to nearly 1,000 awardees in 2011 and had the highest
average SBIR award amount of any participating agency. Although it was not required to do so, HHS
did not consistently collect information on or assess the commercial success of SBIR awards and
therefore cannot determine whether the program is meeting one of its primary goals. Although all
awardees self-certified that they intended to meet SBIR eligibility requirements, we found that
31 percent of awardees had questionable or unverified eligibility for at least one requirement.
Although they are not required to do so, HHS OpDivs did not take any steps to independently verify
that these awardees met eligibility requirements. Furthermore, although one OpDiv checked for
duplicative funding within HHS, none of the four OpDivs completed a required check for duplicative
awards across other Federal agencies.

WHAT WE RECOMMEND

Our findings raise concerns about vulnerabilities in the SBIR program. To address these
vulnerabilities, HHS should create a central office to oversee the SBIR program. HHS OpDivs
should track and assess the commercial success of SBIR projects, ensure compliance with eligibility
requirements, and improve procedures to check for duplicative awards. The Office of the Assistant
Secretary for Financial Resources (ASFR) did not indicate whether it concurred with each of our
recommendations. However, ASFR concurred that additional coordination and oversight across
participating OpDivs is warranted and agreed that HHS must ensure that applicants meet SBIR
eligibility requirements.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................8 

Findings......................................................................................................12 

           HHS awarded $360 million in SBIR funds to nearly
           1,000 awardees in 2011 ..................................................................12 

           Although HHS OpDivs are not required to collect information on 

           the commercial success of SBIR awards, one of the four OpDivs 

           did so..............................................................................................13 

           Although all SBIR awardees certified their eligibility, 31 percent 

           of awardees had questionable or unverified eligibility for at least 

           one requirement .............................................................................14 

           HHS OpDivs did not perform a required check for duplicative 

           awards across other Federal agencies ............................................18 

Conclusion and Recommendations ............................................................19 

           Agency Comments and Office of Inspector General Response.....21 

Appendixes ................................................................................................22 

           A: Differences in the 2011 and 2012 Small Business Innovation 

           and Research Program Policy Directives .......................................22 

           B: Detailed Methodology for Verifying Awardee Eligibility ........23 

           C: Estimate Descriptions, Sample Sizes, Point Estimates, and 

           Confidence Intervals ......................................................................25 

           D: Agency Comments ...................................................................26 

Acknowledgments......................................................................................27 

           OBJECTIVES
           1.	 To describe the Department of Health and Human Services (HHS)
               Operating Divisions’ (OpDivs) expenditures on the Small Business
               Innovation Research (SBIR) program in 2011.
           2.	 To determine the extent to which, in 2011, HHS OpDivs:
                    collected information on the commerical success of SBIR products
                     and services;
                    ensured that SBIR awardees met eligibility requirements; and
                    performed required checks to ensure that SBIR awardees did not
                     receive duplicative funding for grants and contracts (i.e., awards).

           BACKGROUND
           The SBIR program is a competitive awards program created by the Small
           Business Innovation Development Act of 1982.1 These awards are
           intended to provide Federal funding to small businesses pursuing research
           and development ideas that have potential for commercialization and that
           meet research and development needs of the Federal Government.2, 3
           Federal agencies with research and development budgets of over
           $100 million for nongovernment groups are required to participate in the
           SBIR program and in 2011, were required to allocate 2.5 percent of their
           budgets to SBIR awards.4 SBA is the Federal agency that coordinates the




           1
             P.L. 97-219, 96 Stat. 217 1982), 15 U.S.C. § 638. Congress reauthorized this statute in
           2011. This statute also created the Small Business Technology Transfer (STTR)
           program, which shares the goals of the SBIR program and also reserves a specific
           percentage of Federal research and development funding to award to small businesses.
           2
             Small Business Administration (SBA), Small Business Innovation Research Program:
           2011 Policy Directive (2011 SBIR Program Policy Directive), p. 3. Accessed at
           http://documents.scribd.com.s3.amazonaws.com/docs/4nxkhpa8hs11bk8f.pdf?t=1310401
           127 on August 9, 2011.
           3
             Commercialization is the process of developing marketable products or services and
           producing and delivering those products or services for sale to Government or
           commercial markets. SBIR awards can be distributed to awardees through grants or
           contracts.
           4
             This budget is known as an agency’s extramural budget, or the sum of the total
           obligations minus amounts obligated for such activities by Government-owned,
           Government-operated facilities. 15 U.S.C. § 638(e)(1). The 2011 SBIR reauthorization
           specified that the percentage of the extramural research and development budget that
           agencies must allocate to SBIR awards would increase to 2.6 percent in 2012 and to
           2.7 percent in 2013. 15 U.S.C. § 638(f)(1)(C-E).

Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)           1
           SBIR program across the 11 participating Federal agencies.5, 6 SBA issues
           Policy Directives to guide agency implementation of the program,
           monitors agency implementation of the program, and reports program
           results to Congress annually.7 Federal law and SBA establish general
           standards for the SBIR program, and agencies have flexibility in managing
           their individual programs within these standards.8
           Since the implementation of the SBIR program in 1982, HHS has funded
           more than $8 billion in awards to small businesses pursuing innovative
           research ideas. However, in 1999, the Office of Inspector General (OIG)
           reported that within HHS, the National Institutes of Health (NIH) did not
           evaluate the success of the program.9
           If HHS does not properly oversee the SBIR program, it cannot evaluate
           the program’s success or ensure that awardees are eligible and are
           appropriately using funds. Other Federal agencies have identified fraud in
           the SBIR program. Specifically, NASA has identified awardees that
           falsely certified eligibility, including a company that stated it was
           American-owned but was not and a company that stated it was a small
           business but was not.10 Further, the Government Accountability Office
           (GAO) stated in a 1995 report that SBIR awardees had received
           duplicative funds from at least three participating agencies.11 One of these
           agencies was the National Science Foundation, which stated that
           duplicative funding is the most frequent violation in its SBIR program.12



           5
             The 11 agencies that participate in the SBIR program are the Department of
           Agriculture, the Department of Commerce, the Department of Defense, the Department
           of Education, the Department of Energy, HHS, the Department of Homeland Security,
           the Department of Transportation, the Environmental Protection Agency, the National
           Aeronautics and Space Administration (NASA), and the National Science Foundation.
           6
             SBA, What We Do. Accessed at http://www.sba.gov/about-sba-services/what-we-do on
           December 5, 2011. 

           7
             SBA, 2011 SBIR Program Policy Directive, pp. 3, 4, 25. (See footnote 2 for URL 

           information.) 

           8
             SBA, 2011 SBIR Program Policy Directive, p. 4. (See footnote 2 for URL information.)
           9
             OIG, Review of the Effectiveness of the National Institutes of Health’s Administration of
           the Small Business Innovation Research Program, A-15-98-00031. This report focused
           solely on NIH because it makes the most SBIR awards in HHS.
           10
              NASA, Review of NASA’s Management of its Small Business Innovation Research
           Program. Accessed at http://oig.nasa.gov/audits/reports/FY11/IG-11-010-R.pdf on
           July 10, 2013. 

           11
              GAO, Federal Research: Interim Report on the Small Business Innovation Research

           Program, GAO-RCD-95-59, March 1995. Accessed at http://www.gao.gov/assets/160/

           154923.pdf on December 16, 2013. 

           12
              Alison Lerner, Inspector General of the National Science Foundation, Statement Before 

           the Senate Committee of Science, Commerce, and Transportation, August 6, 2009. 

           Accessed at http://www.nsf.gov/oig/SBIRtestimonyAugust6.pdf on August 19, 2013. 


Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)            2
           Congress passed the SBIR/STTR Reauthorization Act of 2011 in
           December 2011.13 To incorporate changes from the reauthorization, SBA
           updated its 2011 SBIR Program Policy Directive in October 2012, after
           the May 2012 end of our data collection for this study. Throughout this
           report, we describe the SBIR program requirements that were in effect at
           the time of our review and note any changes resulting from the new Policy
           Directive. See Appendix A for a list of differences in the 2011 and
           2012 SBIR Program Policy Directives relevant to our review.
           The 2011 SBIR Reauthorization Act requires agency OIGs to cooperate in
           preventing fraud, waste, and abuse in the SBIR program by
           (1) establishing fraud detection indicators; (2) reviewing agency
           regulations and operating procedures; (3) coordinating information sharing
           between agencies; and (4) improving the education and training of SBIR
           administrators, applicants, and awardees.14 The 2011 SBIR
           Reauthorization Act also requires OIGs to submit annual reports to
           Congress describing actions taken and funds used to address fraud, waste,
           and abuse in each SBIR program.15 This report is not intended to fulfill
           HHS OIG’s annual reporting requirement.
           SBIR Program Eligibility and Phases
           To be eligible for an SBIR award, an applicant must:
                	 have a Principal Investigator (i.e., the primary researcher who will
                   conduct and oversee the research project) who is primarily
                   employed by the small business;16
                	 have fewer than 500 total employees, including affiliates;17
                	 maintain a place of business in the United States and operate
                   primarily within the United States;18 and



           13
              National Defense Authorization Act for Fiscal Year 2012, P.L. 112-81, 125 Stat. 1298,
           Section 5001 (2011). 

           14
               15 U.S.C 638b(a)(5). See also SBA, 2012 SBIR Program Policy Directive. Accessed 

           at http://documents.scribd.com.s3.amazonaws.com/docs/6c90n43wxs1wmoxi. 

           pdf?t=1351707349 on July 31, 2013. 

           15
              15 U.S.C. § 638b(c). 

           16
              To be considered primarily employed by the company, the Principal Investigator must 

           spend more than half of his or her time in the employ of the company at the time of

           award and during the proposed project. Occasionally, deviation from this requirement

           may occur; such deviation must be approved in writing. SBA, 2011 SBIR Program

           Policy Directive, p. 13. (See footnote 2 for URL information.)

           17
              In determining whether affiliation exists, SBA considers such factors as ownership,

           management, previous relationships with or ties to another company, and contractual
           relationships. 13 CFR § 121.103 (a)(1-2).

           18
              Alternatively, applicants can make significant contributions to the U. S. economy 

           through payment of taxes or use of American products, materials, or labor. SBA,

           2011 SBIR Program Policy Directive, p. 7. (See footnote 2 for URL information.)


Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)         3
                    be organized as a for-profit entity.19
           All SBIR applicants must certify that they meet all of the eligibility
           requirements before receiving an SBIR award.20 Specifically, applicants
           must check a box on the electronic application indicating that they intend
           to meet all eligibility requirements at the time of the award.21 Although
           awarding agencies are not required to do so, they can conduct additional
           eligibility checks at their discretion.
           The SBIR program consists of three phases.22 Applicants selected to
           receive SBIR funds, or awardees, must participate in Phase I of the
           program to participate in Phases II and III. The object of Phase I is for
           agencies to determine the scientific merit and feasibility of a proposal as
           well as the quality of an awardee’s performance.23 Generally, Phase I runs
           for 6 months, and awardees may receive up to $150,000 in SBIR funds.24
           After completing Phase I, awardees must apply to receive additional
           funding in Phase II. In Phase II, awardees continue the research and
           development of the project.25 Phase II applications must include a
           commercialization plan that may include market analyses, patent status,
           and/or plans to secure funding for Phase III.26 Phase II generally runs for
           2 years, and awardees may receive up to $1 million in additional SBIR
           funds.27 The SBIR program permits agencies to exceed the amount in the
           funding guidelines for Phases I and II if the additional amount is fully
           justified and scientifically appropriate.28 Agencies must provide SBA with
           written justification for all awards that exceed the amounts in the funding
           guidelines. This justification must be included in the agency’s annual
           report to SBA on the SBIR program.29


           19
              Ibid., p. 7.

           20
              HHS, SBIR Application Guide, p. III-27. Accessed at 

           http://grants.nih.gov/grants/funding/424/SF424_RR_Guide_SBIR_STTR_Adobe_VerB.p
           df on October 26, 2011. 

           21
              If an awardee becomes ineligible after receiving an award, the award may continue at 

           the scientific discretion of OpDiv program officials. However, the awardees are not 

           allowed to compete for new SBIR awards after becoming ineligible. 

           22
              SBA, 2011 SBIR Program Policy Directive, p. 8. (See footnote 2 for URL 

           information.) 

           23
              Ibid., p. 9.

           24
              Ibid., p. 17.

           25
              Ibid., p. 9.

           26
              Ibid., p. 14.

           27
              Ibid., p. 17.

           28
              NIH, NIH Grants Policy Statement (October 2010), p. IIB-254. Accessed at 

           http://grants.nih.gov/grants/policy/nihgps_2010/nihgps_2010.pdf on April 17, 2013. 

           29
              SBA, 2011 SBIR Program Policy Directive, p. 17. (See footnote 2 for URL 

           information.) 


Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)           4
           In Phase III, awardees do not apply for or receive SBIR funding but
           instead seek non-SBIR Federal funds or private funds to pursue
           commercialization of products or services resulting from Phase I and II
           research and development.30, 31 Figure 1 illustrates the three phases of the
           SBIR program.
           Figure 1: SBIR Program Phases


                                                         Phase II                            Phase III
          Phase I                                           2 Years
                                                                                             No Timeframe
           6 Months
                                                                                            SBIR awardees
                                                     SBIR awardees
      SBIR awardees                                                                            attempt to
                                                    continue research
     establish proposal                                                                   commercialize their
                                                    and development
     feasibility and are                                                                     products and
                                                  from Phase I and are
       awarded up to                                                                      services and do not
                                                      awarded up to
         $150,000.                                                                           receive SBIR
                                                       $1,000,000.
                                                                                                funding.
           Source: OIG analysis of 2011 SBIR Program Policy Directive.

           The SBIR Program Within HHS
           Four HHS OpDivs issue SBIR awards: NIH, the Centers for Disease
           Control and Prevention (CDC), the Food and Drug Administration (FDA),
           and the Administration for Children and Families (ACF).
           Unlike most other agencies that make awards under the SBIR program,
           HHS does not have a single office responsible for overseeing its OpDivs’
           respective SBIR programs.32 Because NIH makes most of HHS’ SBIR
           awards, NIH solicits SBIR proposals for all participating HHS OpDivs,
           manages the scientific review of all HHS SBIR applications, and submits
           an annual HHS SBIR report to SBA on behalf of all four HHS OpDivs.33
           HHS uses grants and contracts to award SBIR funds and uses a different
           review process for the two types of awards. Once they have received all
           HHS SBIR grant applications, external peer reviewers in NIH’s Center for



           30
              Ibid., pp. 9–10. See also SBA, SBIR. Accessed at http://www.sbir.gov/about/about-
           sbir on April 22, 2013. 

           31
              Phase I awardees may advance to Phase III and receive non-SBIR funds without 

           participating in Phase II. 

           32
              SBA’s SBIR Policy Directive assumes that each participating agency has an SBIR 

           program manager or coordinator and assigns several responsibilities to this office. See 

           SBA, 2011 SBIR Program Policy Directive, pp. 13, 26, 29, and 37. (See footnote 2 for 

           URL information.) The Department of Defense, the Department of Education, the 

           Department of Energy, the Department of Homeland Security, NASA, and the National

           Science Foundation each have an SBIR program manager or coordinator.

           33
              NIH manages the review of SBIR grant applications on behalf of all OpDivs, but CDC

           independently evaluates its SBIR contract proposals. CDC awarded five contracts in

           2011. 


Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)               5
           Scientific Review evaluate the scientific merits of the proposed projects.34
           After receiving reviewers’ scores and comments on the strengths,
           weaknesses and budget of the proposed project, each OpDiv considers
           NIH’s scientific assessment and the OpDiv’s research and development
           needs to select which projects to fund.35
           A technical evaluation panel assesses SBIR contract proposals according
           to requirements in the Federal Acquisition Regulations and the HHS
           Acquisition Regulations.36 The panel makes recommendations related to
           the proposed research and budget. Program staff then conduct a second
           level of review before awarding a contract.37
           To help SBIR awardees commercialize products or services, agencies may
           also use SBIR funds to provide technical assistance to awardees in
           drafting and executing a commercialization plan.38 NIH has two technical
           assistance programs for SBIR awardees; for both, awardees must apply
           and be selected to participate. The Niche Assessment Program helps
           selected Phase I awardees identify the most appropriate market for their
           products or services.39 The Commercialization Assistance Program is for
           selected Phase II awardees that may need help transitioning their
           innovations from the research and development phase to the marketplace.40
           NIH maintains a page on its Web site where SBIR awardees can self-
           report commercialization of products and services. Other HHS OpDivs do
           not participate in structured commercialization assistance plans, but
           awardees may request technical assistance from their respective awarding
           OpDivs.
           HHS Oversight of the SBIR Program
           Each HHS OpDiv is responsible for overseeing its awards. Oversight
           includes ensuring that awardees meet eligibility requirements and that
           awards are not duplicative.

           34
              NIH, NIH Grants Policy Statement (October 2010), pp. I-49–I-53. Accessed at
           http://grants.nih.gov/grants/policy/nihgps_2010/nihgps_2010.pdf on October 7, 2011.
           35
              NIH, Peer Review Process. Accessed at http://grants.nih.gov/Grants/peer_review_
           process.htm on May 17, 2013.
           36
              NIH and CDC are the only HHS OpDivs that award SBIR contracts. These OpDivs
           use a joint guidance document for reviewing SBIR contract proposals. HHS, Solicitation
           of NIH and CDC for SBIR Contract Proposals, PHS 2013-1. Accessed at
           http://grants.nih.gov/grants/funding/SBIRContract/PHS2013-1.pdf on November 25,
           2013.
           37
              Ibid., pp. 25–26.
           38
              SBA, 2011 SBIR Program Policy Directive, p. 21. (See footnote 2 for URL
           information.)
           39
              NIH, Niche Assessment Program. Accessed at
           http://grants.nih.gov/grants/funding/nap.htm on October 21, 2011.
           40
              NIH, Commercialization Assistance Program. Accessed at
           http://grants.nih.gov/grants/funding/cap/index.htm on October 21, 2011.

Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)        6
           Ensuring That Awardees Are Eligible. Before receiving an award, SBIR
           awardees must certify that they intend to meet all eligibility requirements
           at the time of the award. Although they are not required to do so, HHS
           OpDivs can conduct additional eligibility checks before funding an award.
           Further, if an HHS OpDiv is uncertain whether an applicant meets the
           SBIR eligibility requirements, it may request a “size determination” from
           SBA.41 SBA size determinations generally focus on the number of
           employees and size of affiliates, but SBA also collects information
           relevant to other eligibility requirements during this process.42
           Additionally, NIH uses what it calls “Just-in-Time” procedures to request
           additional information from applicants after an application has been peer
           reviewed and is being considered for funding. This information may
           include documents relevant to an applicant’s eligibility.43 These
           procedures are specific to NIH grant awards.
           If an SBIR applicant submits a false certification of eligibility, OpDivs
           follow standard procedures for reporting grant fraud and abuse that may
           include actions up to and including pursuing criminal charges with the
           Department of Justice.44 If an entity knowingly submits a false claim and
           receives government funds, it is liable for three times the government’s
           damages plus civil penalties.45
           Ensuring That Awards Are Not Duplicative. Applicants may propose the
           same project to multiple agencies. However, agencies must avoid funding
           essentially equivalent, or duplicative, work under SBIR and other Federal
           programs.46 If an applicant receives funding from one agency, the
           applicant must withdraw the application(s) from any other agencies to
           which it applied. If the applicant does not withdraw the other
           application(s), it may subsequently receive duplicative funding.



           41
              NIH, NIH Grants Policy Statement (October 2010), p. IIB-251. Accessed at
           http://grants.nih.gov/grants/policy/nihgps_2010/nihgps_2010.pdf on October 7, 2011. 

           42
              SBA, Guide to Size Standards. Accessed at http://www.sba.gov/content/guide-size-
           standards on April 24, 2013. See also SBA Form 355. Accessed at 

           http://www.sba.gov/sites/default/files/SBA%20%20Form%20355.pdf on April 24, 2013. 

           43
              NIH, NIH Grants Policy Statement (October 2010), pp. I-54–I-55. Accessed at 

           http://grants.nih.gov/grants/policy/nihgps_2010/nihgps_2010.pdf on October 7, 2011. 

           Information requested as part of the “Just-in-Time” procedures may also include approval 

           from the Human Subjects Assurance and Institutional Review Board and/or approval

           from the Institutional Animal Care and Use Committee. 

           44
              Ibid., p. I-44. See also False Statements, 18 U.S.C. 1001, Theft of Federal Funds, 

           18 U.S.C. § 641. 

           45
              False Claims Act, 31 U.S.C. §§ 3729-3733. 

           46
              SBA, 2011 SBIR Program Policy Directive, p. 21. (See footnote 2 for URL 

           information.) 


Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)           7
           Duplicative funding can also occur if an awardee receives funding for the
           same project in multiple years.
           To manage awardee data, and in part to avoid duplicative funding, NIH
           stores data on HHS SBIR awardees and their projects in its IMPAC II and
           NIH Data Warehouse databases, which contain information for all HHS
           awards.47 CDC, FDA, and ACF provide data on their SBIR awardees to
           NIH to be included in these databases and can search the databases to
           avoid funding duplicative work within HHS. NIH is responsible for
           providing all of HHS’s SBIR data to SBA through the SBIR.gov database.
           Before granting an award, each OpDiv is also required to check SBIR.gov
           to ensure that applicants have not been previously funded by HHS or other
           Federal agencies for duplicative projects.48 NIH requires applicants to
           self-disclose other active and pending financial support (e.g., other grants
           or contracts) as part of its “Just-in-Time” procedures.49 NIH does not
           require applicants to provide information on past awards. Further, NIH
           does not independently verify that applicants disclosed all other active and
           pending financial support.
           Previous OIG Work
           In 1999, OIG determined that NIH did not track and assess awardees’
           commercialization of SBIR products and services. NIH generally agreed
           with OIG’s recommendations to improve its tracking and assessment of
           SBIR commercialization data. NIH also stated that it was developing a
           methodology to link the significant investments that NIH has made in the
           SBIR program to specific and measurable outcomes.50

           METHODOLOGY
           We used NIH’s Research Portfolio Online Reporting Tools (RePORT)
           Web site and SBA’s SBIR.gov database to obtain and assess information
           on SBIR-funded projects as of March 12, 2012, for fiscal year (FY)


           47
              NIH, Query, View, and Report. Accessed at http://era.nih.gov/nih_and_grantor_
           agencies/other/query_view_and_report.cfm on October 22, 2013.
           48
              SBA, 2011 SBIR Program Policy Directive, p. 21. (See footnote 46 for URL
           information.) The 2011 SBIR Program Policy Directive instructs agencies to use a
           database called Tech-Net to check for duplicative funding. However, OpDivs review
           information on SBIR.gov, which contains all Tech-Net data. The 2012 SBIR Program
           Policy Directive requires agencies to develop policies and procedures to avoid funding
           duplicative work, which could include searching Tech-Net or SBIR.gov. SBA, 2012
           SBIR Program Policy Directive. Accessed at http://documents.scribd.com.s3.
           amazonaws.com/docs/6c90n43wxs1wmoxi. pdf?t=1351707349 on July 31, 2013.
           49
              NIH, NIH Grants Policy Statement (October 2010), pp. I-54–I-55. Accessed at
           http://grants.nih.gov/grants/policy/nihgps_2010/nihgps_2010.pdf on October 7, 2011.
           50
              OIG, Review of the Effectiveness of the National Institutes of Health’s Administration
           of the Small Business Innovation Research Program, A-15-98-00031, November 1999.

Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)                8
           2011.51 We selected a sample of Phase I and II awardees from each HHS
           OpDiv. We also collected SBIR award data from each of the four
           participating HHS OpDivs and requested documents (e.g., internal policies
           or procedures) to determine the extent to which each of these OpDivs
           oversees its SBIR awards. We report data HHS-wide and for specific
           OpDivs, as appropriate.
           The SBIR program was reauthorized in December 2011. To incorporate
           changes from the reauthorization, SBA issued a new Policy Directive in
           October 2012, after our data collection concluded in May 2012. For this
           report, we reviewed SBIR awards administered under SBA’s previous
           Policy Directive. Changes in the 2012 Policy Directive do not affect the
           results of our review.
           Data Collection and Analysis
           We collected and analyzed data to describe HHS SBIR expenditures in
           2011 and to determine the extent to which HHS OpDivs tracked and
           assessed the commercialization of SBIR products and services. We also
           determined the extent to which HHS OpDivs ensured that awardees were
           eligible and that awards were not duplicative.
           Determining the Extent to Which HHS OpDivs Tracked and Assessed the
           Commercialization of SBIR Products or Services. We analyzed the
           responses to our requests for information and supporting documentation to
           determine the extent to which each HHS OpDiv evaluated the
           commercialization of SBIR awardees’ products and services. We
           reviewed NIH’s Niche Assessment and Commercialization Assistance
           Program data to determine the number of participants for which
           commercialization data was collected. We also determined how many
           SBIR awardees have self-reported success stories on NIH’s Web site since
           2001.
           Determining the Extent to Which HHS Ensured That SBIR Awardees Were
           Eligible. Using the data we received in response to our requests, we
           determined the extent to which HHS OpDivs verified and had written
           procedures to verify applicant eligibility beyond self-certification. We
           also asked SBA whether any HHS OpDivs had requested its assistance in
           determining eligibility.
           To determine the extent to which HHS OpDivs ensured that SBIR
           awardees met eligibility requirements, we selected a random sample of


           51
             RePORT is a publically available site that provides access to reports, data, and analyses
           of NIH research activities, including information on NIH awards. NIH, The ReSource,
           Issue 1 (no date; circa 2010–2011). Accessed at http://report.nih.gov/resource/issue1/ on
           December 5, 2013.

Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)             9
           137 SBIR awards, stratified by OpDiv. The number of awards that CDC
           and FDA granted in 2011 was small in comparison to that of NIH.52
           Therefore, we included all awards from CDC and FDA to ensure that
           awards from these OpDivs were included in our sample. Table 1 shows
           the sample of awards used to analyze eligibility by stratum and the
           population of 2011 awards. This stratified random sample is projectable to
           all 2011 HHS SBIR awards.53
           Table 1: Sample and Population of 2011 SBIR Awards
                                Awards in      Award Amount              Awards in   Award Amount
   Stratum                        Sample           in Sample            Population    in Population
   NIH                                 100        $40,768,573                 957     $353,529,688
   CDC                                   26        $4,889,690                  26        $4,889,690
   FDA                                   11        $1,479,428                  11        $1,479,428
   Total                               137        $47,137,691                 994     $359,898,806
             Source: OIG analysis of SBIR awardees reported by HHS OpDivs.


           See Appendix B for a detailed methodology of our process for verifying
           awardee eligibility.
           Determining the Extent to Which HHS OpDivs Ensured That SBIR Awards
           Were Not Duplicative. We used the responses to our information requests
           to determine the extent to which HHS reviewed SBIR awards for
           duplicative funding. We used the stratified random sample of 137 HHS
           SBIR awards described in Table 1 to determine whether any projects were
           listed multiple times in NIH databases using RePORT.
           All estimates in this report are projected to the specified population or
           subpopulation of 2011 SBIR awards, at the 95-percent confidence level.
           Appendix C shows the sample size, point estimates, and 95-percent
           confidence intervals for all statistics in this report.
           Limitations
           We did not independently verify data reported by HHS and SBA.
           Additionally, some Web sites used to verify awardees’ eligibility contained
           self-reported data submitted voluntarily. We did not independently verify
           information reported on these Web sites, and we did not attempt to verify
           awardees’ eligibility through other means if they had no information on
           these Web sites.




           52
              ACF allowed NIH to award ACF’s 2011 SBIR funds, totaling $395,770. NIH, SBIR
           Program Annual Report to the U.S. Small Business Administration. 

           53
              To project our findings, we weighted each sample statistic by the total number of

           awards from each stratum, or OpDiv. 


Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)               10
           Standards
           This study was conducted in accordance with the Quality Standards for
           Inspection and Evaluation issued by the Council of the Inspectors General
           on Integrity and Efficiency.




Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)   11
           FINDINGS
           HHS awarded $360 million in SBIR funds to nearly
           1,000 awardees in 2011
           In 2011, HHS funded 994 Phase I and II SBIR awards for a total of
           $360 million, second to only the Department of Defense in the amount of
           SBIR funding among Federal agencies.54 This amount does not reflect
           HHS’ total SBIR expenditures in 2011 because it does not include SBIR
           funds used in 2011 for awards funded in previous years. According to its
           annual report to SBA, HHS obligated $617 million for all SBIR
           expenditures in 2011.55 NIH awarded 957 of HHS’ 994 SBIR awards in
           2011, which amounted to $353.5 million, or 98 percent of all HHS SBIR
           dollars.
           Agencies are permitted to exceed SBIR funding guidelines if they submit
           written justification in their annual report to SBA. In 2011,
           528 (53 percent) of HHS’ SBIR awards exceeded the amounts in the
           funding guidelines, totaling nearly $170 million in funds over the
           guideline amounts.56 In its annual report to SBA, HHS included one
           general justification for all awards that exceeded the amounts in the
           funding guidelines.
           On average, HHS Phase I awards exceeded funding guidelines by
           $111,819, ranging from $43 to $1.6 million in excess. Phase II awards
           exceeded guidelines by an average of $301,584, ranging from $7,031 to
           $2 million in excess. Further, for FYs 2009–2011, HHS’ average award
           amounts for Phase I and II awards exceeded the average SBIR award
           amount across the Federal Government by $121,000 and $568,000,
           respectively.57 HHS had the highest average award amount for Phase I
           and II awards during this period.
           See Figure 2 for a comparison of average HHS awards and average awards
           for the 10 other participating agencies.




           54
              The Department of Defense awarded 2,754 awards for a total of $1.04 billion in 2011.
           Department of Defense, Department of Defense SBIR Annual Summary Report.
           Accessed at http://www.dodsbir.net/annualreport/annrpt.html on April 8, 2013.
           55
              HHS, SBIR Program Annual Report to the U.S. Small Business Administration.
           56
              Phase II awards span 2 or more years. For this portion of our data analysis, we

           included the Phase II amount awarded for FY 2011.

           57
              SBA, SBIR and STTR Annual Report, FY-2009–2011, p. 7. 


Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)          12
           Figure 2: Average Award Amounts for HHS and All Other Participating
           Agencies, FY 2011

                $1,600,000
                                                                              $1,388,000
                $1,400,000
                $1,200,000
                $1,000,000
                 $800,000
                                                                                             $606,200
                 $600,000
                 $400,000            $251,000
                 $200,000                            $100,400
                        $0
                                              Phase I                                   Phase II

                                               HHS         All Other Agencies

           Source: OIG analysis of SBA’s SBIR and STTR Annual Report for FY 2009-2011


           Although HHS OpDivs are not required to collect
           information on the commercial success of SBIR
           awards, one of the four OpDivs did so
           One goal of the SBIR program is to increase the commercialization of
           federally funded research. However, SBA does not require agencies to
           track the commercial success of SBIR projects. Further, at the time of this
           review, SBIR awardees were not required to report commercialization data
           (e.g., patents acquired, products and services developed and sold to
           companies or the general public) to OpDivs.58 Without consistent tracking
           or an assessment of commercial success, HHS cannot determine whether
           the SBIR program is meeting its commercialization goal. Although
           NIH—which awards the bulk of HHS’s SBIR funds—collects information
           on the commercial success of awards, the other three HHS OpDivs that
           made SBIR awards did not. Furthermore, the information that NIH
           collects is limited in scope.



           58
             SBA’s 2012 Policy Directive establishes a Commercialization Database to store
           information reported by awardees on the commercial activity resulting from their past
           SBIR awards. SBIR awardees are required to update information on their prior Phase II
           awards in the Commercialization Database when submitting an application for an SBIR
           Phase II award and upon completion of the last deliverable for that award. However,
           awardees are not required to update this information if they do not apply for a second
           Phase II award. SBA, 2012 Policy Directive, pp. 44–45. Accessed at
           http://documents.scribd.com.s3.amazonaws.com/docs/6c90n43wxs1wmoxi.pdf?t=13517
           07349 on July 31, 2013.

Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)                 13
           None of the HHS OpDivs had a comprehensive, standardized data
           collection system to track the commercialization of products and services
           resulting from SBIR awards. NIH collects limited information on the
           commercial success of SBIR awards. Specifically, it uses survey data
           stored in the Performance Outcomes Database System (PODS) to assess
           commercial outcomes. However, the information in PODS is based solely
           on two surveys (conducted in 2002 and 2008) of Phase II NIH SBIR
           awardees.59 Further, responses to the surveys were voluntary.60 NIH also
           uses PODS to store Commercialization Assistance Program outcome data
           (e.g., estimated cumulative sales, number of awardees receiving additional
           non-SBIR funding) that it collects throughout an awardee’s time in the
           program.61 However, providing data is voluntary and limited to the
           relatively low number of Commercialization Assistance Program
           participants (39 of 203 Phase II awardees in 2011).62 Because NIH
           received only limited and inconsistent data from program participants, it
           does not use PODS data as a metric to judge the commercial success of
           SBIR projects.
           As of 2011, NIH did not collect commercialization data from Niche
           Assessment Program Participants. Of the 12,836 SBIR awards funded
           since 2002, 99 awardees (less than 1 percent) reported commercialization
           of products and services on the NIH Web site.63

           Although all SBIR awardees certified their eligibility,
           31 percent of awardees had questionable or unverified
           eligibility for at least one requirement
           Applicants are required to check a box on the electronic SBIR application
           certifying that they intend to meet all of the SBIR program’s eligibility

           59
              In 2004, 2005 and 2007, NIH followed up with awardees selected to participate in the
           original 2002 survey and updated the information stored in PODS. NIH, Report on the
           2007 Outcome Measures Update, p. 1. Accessed at http://grants.nih.gov/grants/
           funding/sbir_pods_final_rpt_2007.pdf on September 4, 2013.
           60
              NIH, National Survey to Evaluate the NIH SBIR Program (January 2009), p. I-3.
           Accessed at http://grants.nih.gov/grants/funding/sbir_2008surveyreport.pdf on April 22,
           2013.
           61
              Sally J. Rockey, Ph. D., Deputy Director for Extramural Research, NIH, SBIR:
           Defining Metrics and Outcomes of Success. July 2012. Accessed at
           http://smrb.od.nih.gov/documents/presentations/2012/rockey_07112012.pdf on April 17,
           2013.
           62
              SBIR awardees that received Phase II awards before 2006 were not eligible to
           participate in the Commercialization Assistance Program. NIH, Commercialization
           Assistance Program for Phase II Awardees. Accessed at
           http://grants.nih.gov/grants/funding/cap/more_on_cap.htm on January 7, 2013.
           63
              The NIH Web site includes self-reported data from SBIR and STTR awardees. When
           we reviewed the self-reported data, we were unable to determine in which of the two
           programs the awardees were participating.

Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)         14
           requirements at the time of the award. If an OpDiv is uncertain whether
           an applicant’s certification is accurate, it may, but is not required to,
           independently verify the applicant’s eligibility or request that SBA assist
           with determining eligibility.
           In 2011, all SBIR awardees self-certified that they intended to meet
           eligibility requirements at the time of the award. Using data sources
           commonly used by other Federal agencies to identify potentially ineligible
           SBIR awardees, we found that 31 percent of awardees had questionable
           eligibility for at least one requirement (16 percent of awardees) or
           unverified eligibility for at least one requirement (20 percent of awardees).
           Six percent of SBIR awardees in 2011 had questionable eligibility for at
           least one requirement and unverified eligibility for at least one other
           requirement.64 Although they are not required to do so, HHS OpDivs did
           not take any steps to independently verify that these awardees met
           eligibility requirements.65
           Sixteen percent of awardees had questionable eligibility for at
           least one requirement
           We found information indicating that 16 percent of SBIR awardees in
           2011 may not have met at least one eligibility requirement. Therefore, we
           considered the eligibility of these awardees to be questionable. Table 2
           shows the number of awardees in our sample that had questionable
           eligibility for each requirement.




           64
              The percentage of awardees with questionable eligibility for at least one requirement,
           unverified eligibility for at least one requirement, and both questionable and unverified
           eligibility does not sum to 31 because of rounding.
           65
              NIH requested SBA assistance with determining eligibility for 4 of the nearly
           1,000 awardees in 2011. However, none of these four awardees were in our sample of
           2011 SBIR awards.

Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)                15
           Table 2: Eligibility Requirements and Corresponding Numbers of
           Awardees in Our Sample With Questionable Eligibility, 2011
                                                                                  Number of Awardees in
                                 Eligibility Requirement                            Our Sample With
                                                                                  Questionable Eligibility

        Principal Investigator’s primary employer was the SBIR awardee                                  21


        SBIR awardee had fewer than 500 employees                                                            4


        SBIR awardee had a place of business and operated primarily in the
                                                                                                             2
        United States


        SBIR company was for-profit                                                                          0


           Source: OIG analysis of HHS SBIR awardees, 2012

           The eligibility of 21 awardees in our sample was questionable because we
           found information indicating that the awardee was not the Principal
           Investigators’ primary employer. For example, one Principal Investigator
           for an award in our sample listed three positions on his LinkedIn profile at
           the time the SBIR award was made, including a full-time position at a
           university. This Principal Investigator was associated with one SBIR
           award in 2011 totaling $575,303. Another Principal Investigator for an
           award in our sample stated in her LinkedIn profile that she was the
           president of two companies and head of business development for a third
           company at the time of the SBIR award. This Principal Investigator was
           also listed as an employee on the three organizations’ Web sites. This
           Principal Investigator was associated with one SBIR award in 2011
           totaling $143,301.
           The eligibility of 4 awardees in our sample was questionable because we
           found information indicating that the awardees, or their affiliate(s), had
           more than 500 employees. One awardee in our sample was owned by a
           larger company with 7,200 employees and was awarded $582,698 in SBIR
           funds in 2011.
           The eligibility of two awardees in our sample was questionable because
           we found information indicating that the awardees did not maintain a U.S.
           place of business and/or did not operate primarily in the United States.
           One awardee’s Web site stated that many of its devices are made in the
           company’s location in Canada. This company received two awards for a
           total of $399,938 in SBIR funds in 2011.
           We did not find information indicating that any awardee in our sample was
           not organized as a for-profit entity.




Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)                  16
           Challenges exist in verifying the eligibility of 20 percent of
           SBIR awardees
           Twenty percent of SBIR awardees in 2011 had unverified eligibility for
           one or more of the four eligibility requirements—i.e., we could not find
           information in any of our searches to verify the awardee’s eligibility for
           the requirement(s). Two awardees in our sample had unverified eligibility
           for three requirements. There was one awardee in our sample for which
           we were unable to verify any of the four eligibility requirements. Table 3
           shows each eligibility requirement and the corresponding number of
           awardees in our sample with unverified eligibility.
           Table 3: Eligibility Requirements and Corresponding Numbers of
           Awardees in Our Sample With Unverified Eligibility, 2011
                                                                                  Number of Awardees in
                                Eligibility Requirement                             Our Sample With
                                                                                   Unverified Eligibility

        Principal Investigator’s primary employer was the SBIR awardee                                  13


        SBIR awardee had fewer than 500 employees                                                       14


        SBIR awardee had a place of business and operated primarily in the
                                                                                                            6
        United States


        SBIR company was for-profit                                                                         3


           Source: OIG analysis of HHS SBIR awardees, 2012

           For 13 awardees in our sample, we were unable to verify that the awardee
           was the Principal Investigator’s primary employer. For these awardees,
           we were unable to find documentation confirming that the Principal
           Investigator was employed by the awardee.
           For 14 of the awardees in our sample in 2011, we were unable to verify
           that the company had fewer than 500 employees. For these awardees, we
           were unable to find documentation on LinkedIn, Manta, or other Web sites
           confirming the number of employees at the company or its affiliate(s).
           Further, we were unable to verify that six awardees in our sample had a
           place of business and operated primarily in the United States. For these
           awardees, we found documentation that the companies operated in foreign
           business locations and could not find documentation that the company
           operated primarily in the United States.
           Finally, we were unable to verify whether three awardees in our sample
           were for-profit companies. For these awardees, we were unable to find
           documentation confirming that the awarded company was a for-profit
           business.

Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)                 17
           HHS OpDivs did not perform a required check for
           duplicative awards across other Federal agencies
           Each Federal agency is required to check SBIR.gov for duplicative awards
           within the agency and across other Federal agencies before granting an
           SBIR award. Other agencies have identified awardees that committed
           fraud by not disclosing that they had received awards from other agencies
           for the same work.66 While NIH checks for duplicative funding within
           HHS, none of the four HHS OpDivs checked SBIR.gov for duplicative
           awards across Federal agencies in 2011.
           To check for duplicative funding within HHS, NIH reported that it
           compares SBIR applications to existing SBIR awards within HHS by
           searching IMPAC II, which contains information on HHS awards only.67
           NIH reported that no duplication within HHS occurred in 2011. We also
           did not identify any cases of duplicative awards within HHS. No other
           HHS OpDivs had procedures for performing checks for duplicative
           funding within HHS.
           None of the HHS OpDivs checked SBIR.gov for duplicative awards
           across Federal agencies, as required. NIH has procedures to perform
           limited checks for duplicative funding across Federal agencies. These
           checks, known as “Just-in-Time” procedures, require applicants to self-
           disclose information on other active and pending financial resources,
           including other grants and contracts, before receiving an award. However,
           the procedures do not include steps to independently verify the
           information reported by applicants. No other HHS OpDivs had
           procedures for performing checks for duplicative funding across Federal
           agencies.




           66
              Alison Lerner, Inspector General of the National Science Foundation, Statement Before
           the Senate Committee of Science, Commerce, and Transportation, August 6, 2009.
           Accessed at http://www.nsf.gov/oig/SBIRtestimonyAugust6.pdf on August 19, 2013.
           See also, NASA, Review of NASA’s Management of its Small Business Innovation
           Research Program. Accessed at http://oig.nasa.gov/audits/reports/FY11/IG-11-010-
           R.pdf on July 10, 2013.
           67
              IMPAC II is also available to CDC, but the OpDiv reported that it relies on applicants
           to disclose duplicate SBIR funding.

Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)           18
           CONCLUSION AND RECOMMENDATIONS
           Since the implementation of the SBIR program in 1982, HHS has funded
           more than $8 billion in awards to small businesses pursuing innovative
           research ideas. Furthermore, the reauthorization of the SBIR program in
           December 2011 increased the percentage of SBIR funds awarded by
           participating agencies from 2.5 percent of their annual extramural research
           budgets in 2012 to 3.2 percent by 2017.
           In 1999, OIG reported that HHS had not evaluated the success of the SBIR
           program. Further, other Federal agencies have identified SBIR awardees
           that falsely certified that they met eligibility requirements and received
           duplicative funding.
           In 2011, HHS awarded $360 million in SBIR funds to nearly
           1,000 awardees and had the highest average SBIR award amount of any
           participating agency. However, HHS does not have a central office for
           overseeing the SBIR program.
           HHS did not consistently collect information on the commercial success of
           awards and therefore cannot determine whether the program is increasing
           the commercialization of federally funded research, one of the primary
           goals of the program. Additionally, all awardees in 2011 self-certified that
           they intended to meet SBIR eligibility requirements at the time of the
           award. However, using data sources commonly used by other Federal
           agencies to identify potentially ineligible SBIR awardees, we found that
           31 percent of awardees had questionable or unverified eligibility for at
           least one requirement. Although they are not required to do so, HHS
           OpDivs did not take any steps to independently verify the eligibility of
           these awardees. Furthermore, while one OpDiv checked for duplicative
           funding within HHS, none of the four OpDivs completed a required check
           for duplicative awards across other Federal agencies.
           Our findings raise concerns about vulnerabilities in the HHS SBIR
           program, including the inability to evaluate the program’s success and the
           reliance on self-reported information to determine whether awardees are
           eligible and are not receiving duplicative funding from other Federal
           agencies.
           Therefore, we recommend that HHS:
           Create a central office to oversee the SBIR program
           Unlike most other participating agencies, HHS does not have a central
           office responsible for overseeing the SBIR program. Each OpDiv is
           separately responsible for awarding SBIR funds and overseeing these
           awards. The 2012 SBIR Program Policy Directive requires HHS to
           increase its coordination with other participating agencies and with HHS’s

Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)   19
           OIG to prevent fraud, waste, and abuse in the SBIR program. HHS should
           create a central office to facilitate this coordination and to ensure
           consistent oversight among OpDivs. Central office functions could
           include coordinating with OIG, developing agencywide policies and
           procedures, increasing oversight, and fulfilling agency reporting
           requirements. A central office would also facilitate the consistent
           implementation of our remaining recommendations.
           Collect information to track and assess SBIR-funded projects’
           commercialization
           SBA’s new Policy Directive requires awardees to report commercialization
           data to a central Commercialization Database. The implementation of this
           requirement is ongoing; however, while these data are unavailable, HHS
           OpDivs should develop processes to track commercialization of SBIR
           awardees. These processes should be consistent among OpDivs. OpDivs
           should use this information to determine whether the SBIR program is
           meeting its goal of increasing private-sector commercialization of Federal
           research and development innovations.
           Ensure compliance with SBIR eligibility requirements
           The 2012 SBIR Program Policy Directive requires agencies to ensure
           compliance with SBIR eligibility requirements. SBA requires that
           awardees meet eligibility requirements at the time of the award. HHS
           OpDivs should take actions to ensure that awardees will meet
           requirements before they receive SBIR funds. These actions could include
           implementing a standardized process for verifying that a random or risk-
           based sample of awardees meets all eligibility requirements at the time of
           the award and during the life cycle of the award. OpDivs could also
           require applicants to provide proof that they will meet eligibility
           requirements at the time of the award and request SBA assistance to verify
           awardee eligibility.
           Improve procedures to check for duplicative awards
           The 2012 SBIR Program Policy Directive requires agencies to develop
           policies and procedures to avoid funding duplicative work. HHS should
           develop procedures beyond the “Just-in-Time” procedures used by NIH.
           “Just-in-Time” procedures rely on self-reported information that does not
           allow HHS to determine whether awardees have completed similar
           projects in the past or whether multiple awardees are completing similar
           projects. The new procedures should be consistent across HHS OpDivs to
           ensure that all SBIR applicants receive the same scrutiny regarding
           duplicative awards.




Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)   20
           AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
           RESPONSE
           The Office of the Assistant Secretary for Financial Resources (ASFR)
           provides advice and guidance to the Secretary of HHS on grants and
           acquisition management and provided comments on behalf of HHS.
           ASFR stated that it is committed to the successful implementation and
           oversight of the SBIR program. ASFR did not indicate whether it
           concurred with each of our recommendations. However, ASFR agreed
           that additional coordination and oversight across the participating OpDivs
           is appropriate and warranted. ASFR further noted that it is working with
           the respective OpDivs to determine the most effective and efficient use of
           resources to accomplish this coordination.
           ASFR also agreed that HHS must ensure that applicants are in compliance
           with all SBIR eligibility requirements, noting that it will work with
           OpDivs to determine whether additional eligibility checks are required.
           However, ASFR stated that it has concerns about the official use of social
           media networking sites to verify applicant eligibility, and does not believe
           such sites are reliable sources of information for the purposes of
           confirming or questioning program eligibility. While we understand
           ASFR’s concern, these are tools commonly used by other Federal agencies
           to identify potentially ineligible SBIR awardees.
           We support ASFR’s efforts to address these issues and encourage it to
           continue making progress in these areas. We ask that, in its final
           management decision, ASFR clearly indicate whether it concurs with each
           of our recommendations and what steps, if any, it will take to implement
           them. For the full text of ASFR’s comments, see Appendix D. We made
           minor corrections to the report on the basis of ASFR’s technical
           comments.




Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)   21
                 APPENDIX A
                 Table A-1: Differences in the 2011 and 2012 Small Business
                 Innovation and Research Program Policy Directives

 Requirement                  2011 SBIR Program Policy Directive                          2012 SBIR Program Policy Directive

                           Majority-owned by multiple venture capital       Majority-owned by multiple venture capital operating
                           operating companies, hedge funds and/or          companies, hedge funds, and/or private equity firms
 Eligibility
                                  private equity firms are not eligible.    are eligible, if agencies opt to include this provision.

 Eligibility               Awardees certify their eligibility at the time     Awardees certify their eligibility throughout the life
 Certification                                             of the award.                                        cycle of the award.
                                                                               Agencies may not exceed funding guidelines by
                                                                               more than 50 percent. Agencies must request a
                                                                              waiver to exceed funding guidelines by more than
                          Agencies may exceed funding guidelines if                              50 percent for a specific topic.
                           the additional amount is fully justified and
                                            scientifically appropriate.     Agencies must maintain information on awards that
 Exceeding Funding                                                            exceed funding guidelines, including the amount of
 Guidelines                 Agencies must submit written justification       the award, justification for exceeding the guidelines
                               of the excess funds with their Annual              for each award, the identity and location of the
                                                   Reports to SBA.              awardee, whether the awardee has received any
                                                                               venture capital, hedge fund, or private equity firm
                                                                                        investment, and whether the awardee is
                                                                            majority-owned by multiple venture capital operating
                                                                                companies, hedge funds, or private equity firms.
                                                                                       Agencies and awardees must maintain
                               Agencies are not required to collect or
                                                                               commercialization data in the Commercialization
 Commercialization          track commercialization data. Awardees
                                                                                  Database. Awardees are required to update
 Data                              may voluntarily submit and update
                                                                               commercialization data for prior Phase II awards
                                            commercialization data.
                                                                               when applying for a subsequent Phase II award.
Source: OIG analysis of 2011 and 2012 SBIR Program Policy Directives.




   Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)                                22
           APPENDIX B
           Detailed Methodology for Verifying Awardee Eligibility
           For our sample of 137 SBIR program awards, we verified awardee
           eligibility using the Lexis/Nexis Accurint for Government (Accurint)
           database, State Business Registration Web sites, and awardee Web sites.68
           We used additional Web sites (e.g., Manta, LinkedIn) to collect
           information not available from the sources referenced above.69, 70 We
           chose these sources to verify awardee eligibility because these are tools
           commonly used by other Federal agencies to identify potentially ineligible
           SBIR awardees.71 We classified awardees as having “verified” eligibility
           if we could determine—using these data sources—that the awardees met
           all four eligibility requirements. If at least one data source indicated that
           an awardee met a given eligibility requirement, we considered that
           requirement to be verified. We classified awardees as having
           “questionable” eligibility if we found information indicating that they may
           not meet one or more of the four eligibility requirements. We classified
           awardees as having “unverified” eligibility if we could not find
           information in any of our data sources indicating that awardees met one or
           more of the four eligibility requirements.72
           To verify awardee eligibility, we searched for the following information
           indicating that the awardee:
           1) Was the Principal Investigator’s primary employment. We used
              Accurint, Principal Investigators’ profiles on LinkedIn, and other
              Internet searches to verify that the Principal Investigator was primarily
              employed by the awardee and did not have additional full-time

           68
              Accurint is a database that collects a broad array of public records on businesses and 

           individuals. For personal searches, Accurint contains information on Social Security

           numbers, driver’s licenses, and professional licenses. Accurint can also reveal

           connections between people, businesses, assets, and locations that are not available in 

           public records. For business searches, Accurint draws from corporate filings, property

           information, phone listings, professional licenses, and Securities and Exchange

           Commission filings, among other data. Information on property assets and court

           proceedings is also available both for individuals and businesses.

           69
              Manta is an online community for promoting and connecting small businesses that 

           contains approximately 87 million company profiles. Company profiles include 

           information on company size, type, and location collected from multiple sources (e.g., 

           public company financial and trade records, business registrations, government registries, 

           and representatives of the company). 

           70
              LinkedIn is an online professional networking tool. Registered members create 

           individual profiles containing information about current and past employment, education,

           and other professional interests, or company profiles containing general information 

           about the business. We used only public information on the LinkedIn site. 

           71
              National Science Foundation, Fraud Indicators. 

           72
              Occasionally, deviation from some eligibility requirements may occur and must be 

           approved in writing by the SBA. We did not request documentation of SBA-approved 

           deviations from eligibility requirements. 


Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)             23
                employment at the time of the award. We considered whether the
                dates of employment on LinkedIn were during the award period. We
                considered an awardee’s eligibility questionable if we found
                information indicating that the Principal Investigator was primarily
                employed at another company or institution at the time of the award.
                We determined that we could not verify whether an awardee met this
                requirement if we could not find information indicating that he or she
                was employed by the awardee.
           2)	 Had fewer than 500 total employees, including affiliates. We used
               awardee profiles on LinkedIn and Manta and other Internet searches to
               verify that awardees had fewer than 500 employees. We considered an
               awardee’s eligibility to be questionable if we found information
               indicating that the awardee had more than 500 employees or was
               affiliated with an entity with more than 500 employees.73 We
               determined that we could not verify whether an awardee met this
               eligibility requirement if we could not find any information on an
               awardee’s and/or affiliate’s number of employees.
           3)	 Has a place of business and operates primarily in the U.S. We used
               Accurint, company profiles on LinkedIn and Manta, State Business
               Registration Web sites, and additional Internet searches to verify that
               awardees had U.S. locations and/or operated primarily in the
               United States. We considered an awardee’s eligibility questionable if
               we found information indicating that the awardee operated primarily in
               a foreign location. We determined that we could not verify that
               awardees met this requirement if we found information indicating that
               the awardee had foreign locations and we could not verify that it
               operated primarily in the United States. We did not consider
               contributions to the U.S. economy in this analysis.
           4)	 Was a for-profit entity. We used the Accurint and State Business
               Registration Web sites to verify that awardees were for-profit entities.
               We considered an awardee’s eligibility questionable if we found
               information indicating that the awardee was a not organized as a
               for-profit entity at the time of the award. We determined that we could
               not verify that awardees were for-profit entities if we could not find
               information to confirm the type of entity.



           73
             In determining whether affiliation exists, SBA considers factors such as ownership,
           management, previous relationships with or ties to another concern, and contractual
           relationships. However, we considered an awardee to be affiliated with an entity only if
           we found information explicitly stating that the awardee was owned and/or operated by
           the entity.

Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)           24
                      APPENDIX C
Table C-1: Estimate Descriptions, Sample Sizes, Point Estimates, and
Confidence Intervals
                                                                                        Sample             Point          Confidence
Estimate Description
                                                                                          Size         Estimate*             Interval
Awardees With Verified Eligibility (i.e., we determined that the awardee
                                                                                             137              69%       55.6%--83.2%
was meeting all four eligibility requirements)
Awardees With Questionable Eligibility (i.e., we found information
indicating that the awardee was not meeting one or more of the following                     137              16%        5.4%--27.1%
eligibility requirements)
Awardees With Unverified Eligibility (i.e., we could not determine whether
the awardee was meeting one or more of the following eligibility                             137              20%        8.6%--31.3%
requirements)

Awardees with both a questionable and unverified eligibility requirement                     137               6%        0.3%--11.1%

* Weighted point estimates are provided rather than point estimates and confidence intervals because of small sample sizes. Each sample 

statistic is weighted by the size of each stratum’s population from which our sample was selected. 

Source: OIG analysis of HHS SBIR Program data, 2011. 





         Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)                                      25
            APPENDIX D

            Agency Comments


              DEI';\RTMENT OF HEALTH & HUM!\1\ SERVICTS                              Office of the Secretary



                                                                                     Washington, D.C. 20201


                                                  ~t\R   1 0 2014


     TO:            Daniel R. Levinson
                    Inspector General
                                      /S/
     FROM:          Ulen G. Murray
                    Assistant Secretary fod'inancial Resources and Chief Financial Officer

     SUB.JECT:      I11-IS Comments on OIG Draft Report: Vulnerabilities in the HHS Small Business
                    Innovation ami Research Program. OEJ-04-!1-00530

     The Department of Health and Human Services' Office of the Assistant Secretary for Financial
     Resources (ASFR) appreciates the opportunity to review and comment on the Office oflnspector
     General's draft report on Vulnerabilities in the HHS Small Business Innovation and Research
     Program, OEI-04-1!-00530.

     ASFR values the Small Business Innovation and Research Program (SBIR) and is committed to
     the successful implementation and oversight of the program. As reported, the National institutes
     of Health (NIH) awards the vast majority of the SBlR awards. NIH also serves an important
     function of coordinating much of the program with the other participating Operating Divisions.
     This approach has been successful in ensuring that the Operating Divisions work together to
     implement the requirements of the SBIR Program Policy Directive and the Small Business Act.

     ASFR concurs with the OIG that additional coordination and oversight across the participating
     Operating Divisions is appropriate and warranted. ASFR is currently working with the
     respective Operating Divisions to determine the most effective and efficient use of resources to
     accomplish this coordination. We will provide the OIG with an update on these efforts as they
     progress.

     ASFR also agrees that we must ensure that applicants are in compliance with all SBIR eligibility
     requirements. I lowever, ASFR has concerns about the official use ofwebsites such as Manta and
     Linked In and other similar sites to verify applicant eligibility. These sites, in particular, are
     social media networking sites; they are not government owned or controlled. The accuracy.
     completeness. and currency of the content are at the discretion of the user. There is no validation
     or quality control of any of the data at these sites. Therefore, ASFR believes that such sites are
     not reliable sources of information for the purposes of the government confirming or questioning
     eligibility for its programs. ASFR will work with the respective Operating Divisions to
     determine if additional, appropriate checks are required on eligibility. We will provide the OIG
     with an update on these efforts as they progress.




Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)                        26
           ACKNOWLEDGMENTS
           This report was prepared under the direction of Dwayne Grant, Regional
           Inspector General for Evaluation and Inspections in the Atlanta regional
           office, and Jaime Durley, Deputy Regional Inspector General.
           Sarah Langford served as lead analyst. Office of Evaluation and
           Inspections staff from the Atlanta regional office who conducted this study
           include Sarah McLaulin. Central office staff who provided support
           include Clarence Arnold, Christine Moritz, and Talisha Searcy.




Vulnerabilities in the HHS Small Business Innovation Research Program (OEI-04-11-00530)   27
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
